U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: American Civil Liberties Union v. United States, No. 20-1499
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19, 2021.
The government’s response is now due, after two extensions, on July 28, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including August 27, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1499
AMERICAN CIVIL LIBERTIES UNION
USA

ALEX ABDO
KNIGHT FIRST AMENDEMENT INSTITUTE AT
COLUMBIA UNIVERSITY
475 RIVERSIDE DRIVE
SUITE 302
NEW YORK, NY 10015
212-854-9600
ALEX.ABDO@KNIGHTCOLUMBIA.ORG
BRUCE D. BROWN
THE REPORTERS COMMITTEE FOR FREEDOM
OF THE PRESS
1156 15TH STREET, NW
SUITE 1250
WASHINGTON , DC 20005
202-795-9300
BBROWN@RCFP.ORG
202-795-9310(Fax)
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG

MATTHEW CRAIG
KAPLAN HECKER & FINK LLP
350 FIFTH AVENUE
SUITE 7110
NEW YORK, NY 10118
646.719.744
MCRAIG@KAPLANHECKER.COM
LAURA HANDMAN
DAVIS WRIGHT TREMAINE LLP
1301 K STREET NW
SUITE 500 EAST
WASHINGTON, DC 20005
202-973-4200
LAURAHANDMAN@DWT.COM
SEAN HECKER
DEBEVOISE & PLIMPTON LLP
919 THIRD AVENUE
NEW YORK , NY 10022
212-909-6000
SHECKER@DEBEVOISE.COM
ERIK S. JAFFE
SCHAERR | JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON , DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM
MEENU KRISHNAN
DAVIS WRIGHT TREMAINE LLP
1301 K STREET, NW
SUITE 500 EAST
WASHINGTON, DC 20005
202-973-4239
MEENAKSHIKRISHNAN@DWT.COM

MADELINE LAMO
MEDIA LITIGATION FELLOW
1156 15TH ST., NW
SUITE 1020
WASHINGTON, DC 20005
202-800-3536
MLAMO@RCFP.ORG
TALI R. LEINWAND
JENNER & BLOCK LLP
919 THIRD AVENUE
NEW YORK , NY 10022-3908
212-891-1697
TLEINWAND@JENNER.COM
347-852-3383(Fax)
BRIAN LEVY
WILSON SONSINI GOODRICH & ROSATI
1301 AVENUE OF THE AMERICAS
40TH FLOOR
NEW YORK, NY 10019-6022
BLEVY@WSGR.COM
ROBERT M. LOEB
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8400
RLOEB@ORRICK.COM
THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON , DC 20036
202-955-8500
TOLSON @GIBSONDUNN.COM

JOSHUA PRINCE
SCHAERR|JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON, DC 20006
202-787-1060
JPRINCE@SCHAERR-JAFFE.COM
DAVID A. SCHULZ
MEDIA FREEDOM & INFORMATION ACCESS
CLINIC
ABRAMS INSTITUTE
YALE LAW SCHOOL
P.O. BOX 208215
NEW HAVEN, CT 06520
203-436-5824
DAVID.SCHULZ@YALE.EDU
PATRICK C. TOOMEY
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
CECILLIA D. WANG
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
39 DRUMM STREET
SAN FRANCISCO, CA 94111
CWANG@ACLU.ORG
BRIAN M. WILLEN
GOODRICH & ROSATI, PC
1301 AVE. OF AMERICAS
40TH FLOOR
NEW YORK, NY 10019
212-497-7700
BWILLEN@WSGR.COM

